Case: 20-10280

Document: 00515846550-

Page: 1

Date Filed: 05/03/2021

States' Court ot Appeals
fox tfie Jfiftf) Circuit
United States Court of Appeals
Fifth Circuit

No. 20-10280

FILED
May 3, 2021

Lyle W. Cayce
Clerk
Petitioner—Appellant,

Felix Roberts,

versus
Bobby Lumpkin Director, Texas Department of
Criminal Justice Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CV-3326

ORDER:
convicted Felix Sam Roberts, Texas prisoner # 02017141, of
A jury
d assault with a deadly weapon and unlawfifi possession of a firearm
aggravate
by a felon. Ha was sentenced in July 2015 to thirty-five years ’ imprisonment.
He now moves for aeertificate of appealability (COA) following the district
court’s denial of his 28 U.S.C. § 2254 petition.
To obtain a COA, a § 2254 petitioner must make a “substantial
showing of the denial of a constitutional right.’’ 28 U.S.C. § 2253(c)(2). At
this stage, the

“petitioner must demonstrate that reasonable jurists would

. :■

Case: 20-10280

Document: 00515846550

Page: 2

Date Filed: 05/03/2021

20-10280

find the district court’s assessment of the constitutional claims debatable or
” and that reasonable jurists could conclude that the issues presented
wrong
” Miller-El v.
are “adequate to deserve encouragement to proceed further.
Cockrell 537 U.S. 322, 336 (2003); Slack v. McDaniel, 529 U.S. 473, 484
(2000). Roberts has not met this standard.
Roberts’s petition alleges ineffective assistance of counsel for failing
to raise ah available motions and objections, as well as improper jury
instructions resulting in an illegal sentence. To prevail on an ineffective.
show that his counsel’s
assistance of counsel claim, Roberts must
performance was deficient and that the deficiency prejudiced the defense.
Strickland v. Washington, 466 U.S. 668, 687 (1984). His condusoiy
allegations of ineffective assistance of counsel fail to make this showing.
Miller v. Johnson, 200 F.3d 274, 282 (5th Cir. 2000) (“This Court has made
clear that conclusory allegations of ineffective assistance of counsel do not
constitutional issue in a federal habeas proceeding.”). Roberts also
raise a
fails to demonstrate how the allegedly improper jury instructions “so
infected the entire trial that the resulting conviction violates due process.”
Estelle v. McGuire, 502 U.S. 62, 72 (1991).
Accordingly, bis motion for a COA is denied.

James C. Ho
United States Circuit Judge

2

♦

APPENDIX

B

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
is
FELIX ROBERTS,
Petitioner.
v.
LORIE DAVIS, Director, TDCJ-CID,
Respondent.

)
)
)
)
)
)
)
)

)

Civil Action No. 3:17-CV-3326-C-BT

ORDER
Before the Court are the Findings, Conclusions, and Recommendation of the United
States Magistrate Judge therein advising the Court that Petitioner’s petition for writ of habeas
corpus should be denied and any non-habeas civil claims should be dismissed without prejudice.1
The Court conducts a de novo review' of those portions of the Magistrate Judge’s report or
specified proposed findings or recommendations to which a timely objection is made. 28 U.S.C.
§ 636(b)(1)(C). Portions of the report or proposed findings or recommendations that are not the
subject of a timely objection will be accepted by the Court unless they, are clearly erroneous or
contrary to law. See United Stales v. Wilson, 864 F-2d 1219, 1221 (5th Cir. 1989).
After due consideration and having conducted a de novo review, the Court finds that
Petitioner’s objections should be OVERRULED. The Court has further conducted an
independent review of the Magistrate Judge’s findings and conclusions and finds no error. It is
therefore ORDERED that the Findings, Conclusions, and Recommendation are hereby

Petitioner filed timely objections to the Magistrate Judge’s Recommendation on November 27,
2019.

ADOPTED as the findings and conclusions of the Court

For the reasons stated therein,

for writ of habeas corpus is hereby DENIED. All remaining non-habeas
Petitioner's petition
civil claims are DISMISSED without prejudice.
SO ORDERED this

2

13 day of January, 2020.
;

/
/

oi

: l

/

i'

//

/

7

/
•INSTATES D}:4TF|lCT
JUDGE

SENIOR l.
!■

\

2 If so desired.. Petitioner may raise any

I

and all non-habeas civil claims in a separate civil action.

MIME-Version:1.0
From:ecf_txnd@txnd.uscourts.gov
To:Cou rtmail@localhost.localdomain
SubJ«?T“uJi?J6?n7Casadi"n-c^i326-C-BT Roberts v. Davis-Director TDCJ-CID
Order
USERS***dJudiciat^Conference of th. Ujitjd States

¥SUSSnKn5s4SSiSe25e°;rS^=|2"g Spyfj^lPag|S,^U,I1^sei;S5onl“"y'if
receipt is required by law.T/aJer charSes doinloai a copy of each document
Turlll thisTirs^vieuing However, if ?he' referenced document is a transcript
the free copy and 30 page limit do not app y.
U.S.. District Court
Northern District of Texas
Notice of Electronic Filing
1/13/2020 3:18 PM CST and filed
The following transaction was entered on
on 1/13/2020

Case Name: Roberts v. Davis-Director
Case Number: 3:17—cv—03326 C BT
/nn-Rnt nl?296749
https://ecf.txnd.uscou rts.gov/cgi-bin/DktRpt.pi.29b/4y
Filer:
WARNING: CASE CLOSED on 12/10/2019
Document Number: 38
Copy the URL address from the line below into,the location bar
https^//ecf.txncL uscourt^gov/doc1/177112974730?caseid=296749&de=seq_num=130&mag
ic=num=MAGIC

Docket Text:
ORDER: After due consideration and
r
having conducted a de novo review thC

. fi d that Petitioner's
hasffurther conducted an independent

Recommendation
findings and conclusions of the Court. For the
are hereby ADOPTED as
netition for writ of habeas corpus
reasons stated therein, Petitioner s peti
.:mc. are DISMISSED withort
R Cummings bn 1/13/2020) (aaa)

o.i7_rv-03326-C-BT Notice has been electronically mailed to.
Jennifer Louise Wissinger jennifer.wissinger2@oag.texas.gov,
ashley.hodgson@oag.texas.gov,
lau ra.haney@oag.texas.gov
„
n«7fi-C-BT Notice required by federal rule will be delivered by other
means'" (as^detailed !ntterk's records for orders/judgments) to:
Felix Roberts
■ #2017141

LNiHE UNTTED^TATES-DlST-RieT-e©^^
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

)
)
)
)
)
)
)
)
)

FELIX ROBERTS..
Petitioner,
v.
LQRIE DAVIS, Director, TDCJ-CID,
Respondent.

Civil Action No. 3:17-CV-3326-C-BT

JUDGMENT
For the reasons stated in the Court's Order of even date,
IT IS ORDERED, ADJUDGED, AND DECREED that Petitioner’s petition for writ of
habeas corpus be DENIED. All remaining non-habeas civil claims are DISMISSED without
prejudice.
SIGNED this

4day of January, 2020.

\\

FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
FELIX ROBERTS,
Petitioner,
v.
LOREE DAVIS, Director, TDCJ-CED
Respondent.

§
§
§
§
§
§

No. 3:17-cv-3326-C (BT)

8

FINDINGS, CONCLUSIONS, AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Felix Roberts, a Texas prisoner, filed a pro se petition for a writ of
habeas corpus under 28 U.S.C. § 2254. For the following reasons, the petition
should be denied, and any non-habeas civil claims should be dismissed
without prejudice.
I.
In July 2015, a jury found Roberts guilty of aggravated assault with a
deadly weapon, in Cause No. F-1445364, (see Doc. 24-2 at 22), and unlawful
possession of a firearm by a felon, in Cause No. F-1445368. (See Doc. 24-5 at
32). In each conviction, the jury also found true the sentence-enhancement
allegations that Roberts had two pfior felony convictions and sentenced
Roberts to thirty-five years of imprisonment. (See id.; Doc. 24-2 at 22). The
Fifth District Court of Appeals affirmed the trial court’s judgments. See
Roberts v. State, No. 05-15-00936-CR, No. 05-15-00937-CR, 2016 WL
6111069 (Tex. App - Dallas October 19, 2019, pet. refd.). Roberts filed a

petition for disCrei

JCT.

firearm by a felon, 5^ doc. 12-19, but not for his conviction for aggravated
assault with a deadly weapon. See Doc. 14-1. The Texas Court of Criminal
Appeals (OCA) refused Roberts’s petition for discretionary review. See
Roberts v. State, No. PD-1341-16, (Tex. Crim. App. 2017). Roberts filed two
state habeas petitions, attacking his convictions. (Doc. 24-2 at 26-43; Doc.
24-5 at 36-53). The OCA denied both petitions, without a written order, Ex
parte Roberts, No. 88, 496-01; Ex parte Roberts, No. 88, 496-02. (See Doc.
24-1; Doc. 24-3).
Roberts then filed the instant amended § 2254 petition. (See Doc. 15).
He had previously filed a § 2254 petition prior to filing his state habeas
petitions. (See Doc. 3). Upon the CCA’s denial of his state petitions , Roberts
filed his amended § 2254 petition, in which he argues.
1(a)-

His trial attorney provided ineffective assistance of by.
^(j)
ii)

failing to raise all available motions or objections at trial,
failing to object to “illegally used enhancements;”
fading to call into question prosecutorial misconduct of
using perjured testimony and contamination of jury,

iv)

failing to contact defendant in a timely manner,

v)

failing to properly investigate the case;

vi)

failing to interview, subpoena, or question defense
witnesses;

vii)

failing to raise proper defenses;
2'

vmj

failing to object lo the stu'te^^mend~ment-of-aHahar-gin-g
document before trial;

ix)

failing to act in a professional manner;

x)

failing to put on a proper defense; and

jjfxi)

failing to call into question the contamination of the jury
by outside extraneous influence and information.

1(b). His appellate counsel provided ineffective assistance by failing
to raise all possible grounds on appeal.
2.

The prosecutor committed misconduct by:
i)

presenting false evidence at grand jury and at trial,

ii)

making improper comments to the jury;

hi)

introducing inadmissible evidence to jury;

iv) ■ engaging in selective and vindictive prosecution,
v)

violating the Equal Protection clause by bringing charges
against Roberts;

vi)

withholding exculpatory evidence;

vii)

tampering with and destroying evidence, and

viii)

using illegal enhancements to increase sentence.

3.

The trial court improperly instructed the jury regarding
enhancements.

4.

The trial court erred by allowing the prosecution to commit
perjury regarding the enhancements.

5.

He is actually innocent.

6.

There is insufficient evidence to support his convictions.

3

fir

A

Unexhausted Claims
Roberts did not raise issues l(a)(iii-xi), 1(b), 2,4,

and 6, either on direcfc&^£__

appeal, or in his state habeas application. On direct appeal, Roberts argued
only a violation of state law. Specifically, he argued “reversible error occurred
when the trial court failed to instruct the jury to find the offenses and
convictions in the enhancement paragraphs sequential.” Roberts, 2016 WL<
6111069 at *1. Importantly, in his petition for discretionary review to the CCA
Roberts continued to argue only that the trial court’s jury instruction violated
state law. (See Doc. 12-19). Roberts also did not raise these issues in his state
habeas applications. (SeeT>oc. 24-2 at 26-43; Doc. 24-5 at 36-53).
Each issue a petitioner raises in a federal habeas writ must have been
exhausted. That is, the issue must have been “fairly presented” to the state
court. Picard v. Conner, 404 U.S. 270, 275 (1971). The exhaustion
made in a federal
requirement is not met when new factual claims are
petition. Anderson v. Harless, 459 U.S. 4, 6-7 (1982). If a petitioner fails to
exhaust state remedies and the court to which he would be required to present
his claims would now find the claims procedurally barred due to the
petitioner’s own procedural default, ‘federal courts are barred from reviewing
those claims.” Woodfbx v. Cam, 609 F.3d 774, 793 (5th Or. 2010) (citing
Sones v. Hargett, 61 F.3d 410, 416 (5th Or. 1995)). To overcome the
procedural bar for failure to exhaust state remedies, a petitioner must
4

“demonstrate-cause fui the default
alleged violation of federal law, or demonstrate that failure to consider the
claims will result in a fundamental miscarriage of justice.” Coleman v.
Thompson, 501U.S. 722, 750 (1991). Amiscarriage of justice in this context
means that the petitioner is actually innocent of the crime for which he was
convicted. See Sawyer v. Whitley, 505 U.S. 333, 339-40 (1992).
In the present case, if Roberts were to return to state court to attempt
to exhaust, he would be barred from raising these claims. See Neville v.
Drekte, 423 F.3d 474, 480 (5th Cir. 2005) (stating that “[ejxcept under
extraordinary circumstances, Texas law does not permit successive
petitions.”). Texas law forbids second or successive applications for post­
conviction relief if the claims could have been, but were not, raised in a prior
state writ unless “no rational juror could have found the applicant guilty
beyond a reasonable doubt.” TEX. CODE CRIM. PROC. art. 11.07 § 4(a).
Although Roberts claims he is actually innocent, he provides no support from
the record for this claim. {See Doc. 16 at 27-30). He simply discusses federal
case law regarding actual innocence, then states that due to the “similarities”
between those cases and his, he qualifies for relief. {See id.). Roberts is
mistaken. He fails to show that no rational juror could have found him guilty.
Because Roberts has faded to establish cause for the default and actual
prejudice, these claims are unexhausted and procedurally barred.

5

To the extent:

tfa^t~R:obert-s-^-aiS^s-43i-s-a£t4ial-mXLOC£.nce_claiin as a

freestanding ground for habeas relief, the claim is unavailing. A claim of
actual innocence does not state an independent, substantive constitutional
claim and is not a basis for federal habeas corpus relief. See Herrera v.
Collins, 506 U.S. 390 (1993). Claims of actual innocence are not cognizable
on federal habeas review. See United States v. Fields, 761 F.3d 443, 479 (5th
Cir. 2014) (“[Fifth Circuit] caselaw does not recognize freestanding actual
innocence claims.”). Aclaim of actual innocence may not be a basis for federal
habeas corpus relief absent an independent federal constitutional violation.
^SeeDowthitt v. Johnson1730^3dJ33C14imiS^

has not

\y
shown an

independent federal constitutional violation, and so his actual

innocence claim is not cognizable on federal habeas appeal.

in.
A.

Standard of Review for Remaining Claims
The role of federal courts in reviewing habeas corpus petitions by

prisoners in

state custody is exceedingly narrow. A person seeking federal

habeas corpus review must assert a violation of a federal constitutional right.
Lowery v. Collins, 988 F.2d 1364,1367 (5th Cir. 1993). Federal habeas corpus
relief will not issue to correct errors of state constitutional, statutory, or
procedural law, unless a federal issue is also present. Estelle v. McGuire, 502
U.S. 62, 67-68 (1991); West v. Johnson, 92 F.3d 1385, 1404 (5th Cir. 1996).

6

When reviewing state proceedings, a fe<
appellate court. Dillard v. Blackburn, 780 F.2d 509, 513 (5th Cir. 1986)
Federal habeas corpus relief for state prisoners has been further
limited by the Antiterrorism and Effective Death Penalty Act of 1996 (the
“AEDPA”). The pertinent terms of the AEDPA, 28 U.S.C. § 2254 provide:
(d)

An application for writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a state
court shall not be granted with respect to any claim that
was adjudicated on the merits in State court proceedings
unless the adjudication of the claim (1)

resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States, or

(2)

resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in a State court proceeding.

As

See 28 U.S.C. § 2254(d).
Under the “contrary to” clause, a federal habeas court may grant the
writ of habeas corpus if the state court arrives at a conclusion opposite to that
reached by the United States Supreme Court on a question of law or if the
state court decides a case differently from the United States Supreme Court
on a set of materially indistinguishable facts. Williams v. Taylor, 529 U.S.
362, 380-84 (2000). Under the “unreasonable application” clause, a federal
court may grant a writ of habeas corpus if the state court identifies the correct
governing legal principle from the United States Supreme Court s decisions, .

7

.son'

frutnmuensonably-applies4h-at^n

As a condition for obtaining habeas corpus relief from a federal court, a state
prisoner must show that the state court’s ruling on the claim being presented
in federal court was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for fairminded disagreement. Harrington v. Richter, 562 U.S. 86,105 (2011). A
petitioner must show that there was no reasonable basis for the state court to
deny relief. Id., at 98.
Under Texas law, when the CCA denies a state habeas petition, as in
the present case, the “denial” means that the court rejected the merits of a
particular claim. See Miller v. Johnson, 200 F.3d 274, 281 (5th Cir. 2000)
(‘Under Texas law, a denial of relief by the Court of Qriminal Appeals serves
as a denial of relief on the merits of the claim.”); Exparte Torres, 943 S.W.2d
469, 472 (Tex. Grim. App. 1997) (en banc) (‘In our writ jurisprudence, a
‘denial’ signifies that we addressed and rejected the merits of a particular
claim while a ‘dismissal’ means that we declined to consider the claim for
reasons unrelated to the claims merits.”). Because the CCA denied Roberts’s
claims on the merits, the deferential AEDPAstandard of review applies to this
petition.
B.

Ineffective Assistance of Counsel
Roberts claims his trial counsel provided ineffective assistance by'

failing to raise all available motions or objections, and specifically failing to
8

'T&0 -

i^^^jct>jsct-to-££fflega^^^4-^^-aacem-eats,!l-XQ_siLCceed^on_adaim_rfmefective_
assistance of counsel, a petitioner ninst show counsel s representation fell
below an objective standard of reasonableness, with reasonableness judged
under professional norms prevailing at the time counsel rendered assistance.
Strickland v. Washington, 466 U.S. 668, 690 (1984). The standard requires
the reviewing court to give great deference to counsel s performance, strongly
presuming counsel exercised reasonable professional judgment. Id. The right
to counsel does not require errorless counsel; instead, a criminal defendant is
entitled to reasonably effective assistance. Murray v. Maggio, 736 F.2d 279,
281-82 (5th Cir. 1984); Boyd v. Estelle, 661F.2d 388, 389 (5th Cir. 1981).
Additionally, a petitioner “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Strickland,
466 U.S. at 694. The petitioner must “affirmatively prove,” not just allege,
prejudice. Id. at 693. if he fails to prove prejudice, the court need not address
the question of counsel’s performance. Id. at 697. Merely presenting
“conclusory allegations” of deficient performance or prejudice is insufficient
to meet the Strickland test. Miller, 200 F.3d at 282.
Failure to False Motions and Objections
In Claim l(a)(i), Roberts argues that his trial counsel provided
ineffective assistance by failing “to raise all available motions, . . . [or]
9

■objections at trial:-’-(-5k-644QG^4-5-a-t
counsel failed to object to “the illegally used enhancements being utilized to
contaminate and deliberately mislead the jury.” (See Doc. 16 at 43)^Roberts
provides no support for these vague allegations. While Roberts provides a
listing of motions in conjunction with his first claim, he specifically states
that the list is for “demonstration only . . . which counsel may or may not
have filed and in which may or may not apply to the circumstances of this
case. ” (See Doc. 16-2 at 109-11). And with regard to his claim regarding the
sentence enhancements, he provides no further argument other than to state
that the alleged error deprived him of “the benefit of a fair trial. (See Doc.
16 at 43).
Conclusory allegations of ineffective assistance of counsel, in allegedly
failing to file motions, to make objections and to follow defendant’s
instructions, are insufficient to demonstrate ineffective assistance of
counsel. Untied States v. Demik, 489 F.3d 644, 647 (5th C5r. 2007). Because
Roberts does not point to any evidence in tk^ecOTd to__supp£rt ,hiso
contentions, his general complaints are insufficient to demonstrate either
deficient performance by his counsel, or prejudice resulting from the alleged
deficient performance. See id. \ see also Miller, 200 F.3d at 282.
Further, Roberts raised these issues in his state habeas petition.
Because the state habeas court’s decision to deny relief did not involve an

10

HELP

Lei

to show that his counsel’s performance was ineffective.
Roberts also fails to show that the state-court decision was
unreasonable by showing “that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have
been different.” Strickland, 466 U.S. at 694.
Roberts fails to show there was no reasonable basis for the state court
to deny relief. See Richter, 526 U.S. at 98.
Improper Jury Instruction
Roberts claims the trial court improperly instructed the jury. He
argues the court failed to instruct the jury that

it should find the

enhancement allegations true only if the State proved sequential prior
felony convictions.” (Doc. 16 at 3)(emphasis in original). He provides no
support from the record to substantiate this claim, which, unsupported by
evidence from the record, is insufficient. See Schlang v. Heard, 691 F.2d
796, 799 (5th Cir. 1982). Federal courts do not “consider a habeas
petitioner’s bald assertions on a critical issue in his pro se petition . . . mere
conclusory allegations do not raise a constitutional issue in a habeas
proceeding.” Smallwood v. Johnson, 73 F.3d 1343, 1351 (5th Cir. 1996)
(quoting Ross v. Estelle, 694 F.2d 1008, 1011-12 (5th Cir. 1983)), see also
Lookingbill v. Cockrell, 293 F.3d 256, 263 (5th Cir. 2002) (stating that

11

dec

^4ege_a-4ia-b&as-^&titiQa£r-J'ajls_to_bJief_an_aj^iim&nt adequately, it is
considered waived).
Further, the fact that an instruction may be incorrect under state law
is not a basis for habeas relief. See Estelle v. McGuire, 502 U.S. 62, 71-72
(1991). The only question in claims of improper state court jury instructions
is “whether the ailing instruction by itself so infected the entire trial that the
resulting conviction violates due process.” See id. at 72.
Here, Roberts fails to demonstrate how the jury was improperly
instructed, much less, how any single jury instruction resulted in a
conviction in violation of his due process rights. Thus, this claim fails. See
id.
Further, the state habeas court denied this claim when it denied
Roberts’s application for a state habeas application and Roberts fails to show
the state court proceedings resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly-established federal law, as
determined by the Supreme Court of the United States, or that the decision
was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding. Williams, 529 U.S. at 402OS; Childress v. Johnson, 103 F.3d 1221, 1224-25 (5th Cir. 1997). Roberts
fails to show there was no reasonable basis for the state court to deny relief.
See Richter, 562 U.S. at 98.

12

-IVt
Finally, Roberts requests “[m]onetary damages in the amount of
$88,000 per year for each year [he] has suffered pain and suffering, mental
anguish and mental cruelty from [a] wrongful conviction.” (Doc. 15 at 7). The
Court initially notes that Roberts has not established that he was wrongly
convicted. Additionally, 28 U.S.C. § 2254(a) provides that federal courts
“shall entertain an application for a writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a State court only on the
ground that he is in custody in violation of the Constitution or laws or
treaties of the United States.” See 28 U.S.C. § 2254 (a). It does not allow for
other civil causes of action or monetary damages. See id.
V.
For the foregoing reasons, the Court should deny the petition for writ
of habeas corpus under 28 U.S.C. § 2254 with prejudice for failure to make
a substantial showing of the denial of a federal right, and any non-habeas
civil claims should be dismissed without prejudice to properly raising them
in a separate civil action.
Signed November 15, 2019,
)

REBEOcSuTHERFORD
UNITED STATES MAGISTRATE JUDGE

13

y

APPENDIX

C

:

■r

,-2016.

In The

(Ermrl nf Appeals
iffttlp jBistriti gf
at Balias
No. 05-15-00936-CR
No. 05-15-00937-CR
FELIX SAM ROBERTS, AppeUant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the Criminal District Court No. 1
Dallas County, Texas
Trial Court Cause No. F-1445364-H

MEMORANDUM OPINION
Before Justices Francis, Stoddart, and Schenck
‘ Opinion by Justice Francis
A jury convicted Felix Sam Roberts of aggravated assault with a deadly weapon and
unlawful possession of a firearm by a felon. After finding the enhancement paragraphs true, the
jury set punishment at thirty-five and thirty years in prison. In a single point of error in each
case, appellant contends reversible error occurred when the trial court failed to instruct the jury
to find the offenses and convictions in the enhancement paragraphs sequential. We affirm the
trial court’s judgments.
The indictments in each case alleged two previous offenses for purposes of punishment
enhancement. At the punishment phase, the State read the portions of the indictments describing
the enhancement offenses to the jury and submitted as evidence the judgments for the
convictions alleged in the indictments. The indictments specifically alleged, and the judgments

showed, that, in-each case, appellant committed the second enhancement offense after being
finally convicted of the first enhancement offense.
Appellant then testified about his previous convictions.

After discussing the various

allegations, the State asked, “So the paragraphs we’re talking about, these enhancement
paragraphs, you admitted that you did all of that, right?” Appellant responded Yes, ma am.
Although appellant pleaded “not true” to the enhancement allegations, he admitted each specific
enhancement allegation in his testimony.
The charge of the court in each case set out the enhancement allegations. The charge in
the aggravated assault case read:
Paragraph Two of the indictment alleges that prior to the commission of the
aforesaid offense, the said defendant was convicted of the felony offense of
driving while intoxicated/3rd on the 27th day of July, 2009, in Cause Number
401-82401/08 on the docket of the 40.1st District Court of Collin County, Texas
under the name of Felix Sam Roberts, and said conviction was a final conviction
and was a conviction for an offense committed by him, the said Felix Sam
Roberts, prior to the commission of the offense herein before charged against him,,
as set forth in the first paragraph hereof....
It is further alleged the said defendant, Felix Sam Roberts was convicted of the
felony offense of driving while intoxicated /3rd on the 8th day of April, 2005, in
Cause Number F0534491, on the docket of the 292nd Judicial District Court of
Dallas County, Texas under the name of Felix Sam Roberts, and said conviction
was a final conviction and was a conviction for an offense committed by him, the
said Felix Sam Roberts, prior to the commission of the offense.
The charge in the unlawful possession of a firearm by a felon case read:
Paragraph Two of the indictment alleges that prior to the commission of
the aforesaid offense, the said defendant was convicted of the felony offense of
driving while intoxicated /3rd on the 8th day of April, 2005, in Cause Number
F0534491, on the docket of the 292nd Judicial District Court of Dallas County,
Texas under the name of Felix Sam Roberts, and said conviction was a final
conviction and was a conviction for an offense committed by him, the said Felix
Sam Roberts, prior to the commission of the offense herein before charged against,
him, as set forth in the first-paragraph thereof. . . .
It is further alleged the said defendant, Felix Sam Roberts was convicted
of the felony offense of burglary of a vehicle on the 30th day of December, 1997,
in Cause Number F9270224, on the docket of the Criminal District Court No. 1 of
-2-

Dallas County, Texas, under the name of Felix Sam Roberts, and said conviction
was a conviction for an offense committed by him, the said Felix Sam Roberts,
prior to the commission of the offense or offense. To this allegation the defendant
has entered a plea of not true.
Although the prior convictions were listed in chronological order, the charges did not contain
any language that the second enhancement offenses were committed after the convictions for the
first enhancement offenses became final. Appellant lodged no objection to the charge, and the
jury returned a verdict finding the paragraphs true and assessed an enhanced sentence.
A court’s charge to the jury must correctly apply the law to the facts of the case. See
TEX. CODE CRIM. Proc. ANN. art. 36.14 (West 2007).

Under the penal code, except in

circumstances not applicable here, if it is shown on the trial of a felony offense other than a state
jail felony punishable under section 12.35(a) that the defendant has previously been finally
convicted of two felonies, and the second previous felony conviction was for an offense that
occurred after the first previous felony conviction became final, on conviction the defendant
shall be punished by imprisonment for life, or for any term of not more than 99 years or less than
25 years. See TEX. PENAL CODE ANN. § 12.42(d) (West Supp. 2016). Aggravated assault with a
deadly weapon and unlawful possession of a firearm by a felony are second- and third-degree
felonies, respectively. See TEX. PENAL CODE ANN. § § 22.02 & 46.04 (West 2011).
Here, the previous judgments submitted by the State and appellant’s own testimony
provided prima facie evidence that appellant was finally convicted of two separate, sequential
felony offenses prior to the offenses for which he was standing trial. Thus, the evidence supports
enhanced punishment under section 12.42(d).

Appellant agrees the State proved the

enhancement allegations at trial, does not contest the evidence to support them, and complams
only of the instructions given to the jury. He contends that because the court never specifically
instructed the jury that it had to find the second previous felony offense was committed
subsequent to the first previous felony conviction having become final, enhancement was
-3-

improper and remand for a new punishment hearing is required. In the unlawful possession of a
firearm by a felon offense, he asserts the sentence is illegal. Based on the record before us, we
cannot agree.
While the charges did not contain the language specifying that the

second felony

conviction was for an offense that occurred subsequent to the first felony conviction having
become final,” the only evidence of previous convictions given to the jury was of offenses in
which the second offense occurred after the conviction for the first offense became final.
Furthermore, the charges instructed the jury to find the State’s enhancement allegations true only
if they found and believed that “prior to the commission of the offense [for which he was on
trial] . . . the defendant has twice before been duly and legally convicted of a felony as set and
presented to you.” Thus, for the jury to find the allegations true, it necessarily had to find
appellant previously committed two felony offenses, the second of which was committed after
his conviction for the first offense became final, because only sequential previous offenses and
convictions were presented for the jury’s consideration.
Even if it was error to fail to include the language that appellant complains was omitted,
he has made no attempt to demonstrate how he was harmed. Based on the record as a whole, we
conclude appellant did not suffer egregious harm as a result of the instructions given. See nice v.
State, 746 S.W.2d 356, 361(Tex. App.—Fort Worth 1988, pet. refd); Damian v. State, 116
S.W.2d 659, 665 (Tex. App.—Houston [14th Dist] 1989, pet. refd). We resolve these issues
against him.

-4-

We affirm the trial court’s judgments.

/Molly Francis/
MOLLY FRANCIS
JUSTICE

Do Not Publish
Tex. R. App.P. 47.1
150936F.U05

-5-

Court of Appeals
Jftftlj Btslrirl nf (teas at Dallas
JUDGMENT
On Appeal from the Criminal District Court
No. 1, Dallas County, Texas
Trial Court Cause No. F1445364-H.
Opinion delivered by Justice Francis.
Justices Stoddart and Schenck participating.

FELIX SAM ROBERTS, Appellant
No. 05-15-00936-CR

V.

THE STATE OF TEXAS, Appellee

Based on the Court’s opinion of this date, the judgment of the trial court is AFFIRMED.

Judgment entered October 19, 2016.

-6-

Court of Appeals
Tflrfttj ©istrtrt of Otexas at Dallas
JUDGMENT
FELDC SAM ROBERTS, Appellant
No. 05-15-00937-CR

V.

THE STATE OF TEXAS, Appellee

On Appeal from the Criminal District Court
No. 1, Dallas County, Texas
Trial Court Cause No. F1445368-H.
Opinion delivered by Justice Francis.
Justices Stoddart and Schenck participating.

Based on the Court’s opinion of this date, the judgment of the trial court is AFFIRMED.

Judgment entered October 19, 2016.

-7-

FILE COPY
Lisa Matz

hief Justice
arolyn Wright

Justices
David L. Bridges
Molly Francis
Douglas S. Lang
Elizabeth Lang-Miers
Robert M. Fillmore
Lana Myers
David Evans
David Lewis
da Brown
raig Stoddart
BbllWhitehill
David J. Schenck

LERKOFTHE OURT

(214J71T3450
theclerk@5th.1xcourts.gov

IwwJS
Court of Appeal#
jTiftf) jBiStrict of ®exag at jBallag
600 ommerce Street, Suite 200
Dallas, Texas 75202
(214)712-3400

Gayle umpa
Business dministrator
(214)712-3434
gayle.humpa@5th.txcourts.gov
Facsimile
(214)745-1083
Internet
www.txcourts.gov/5thcoa.aspx

October 19, 2016
Bruce Anton
Sorrels, Udashen & Anton
2311 Cedar Springs Rd Ste 250
Dallas, IX 75201-7845
* DELIVERED VIA E-MAIL *

Felix Sam Roberts
#2017141
Lychner Unit
2350 Atascocita Road
Humble, TX 77396
Justin Johnson
Dallas County District Attorney's Office
133 N. Riverfront Blvd., LB-19
Dallas, TX 75207
* DELIVERED VIA E-MAIL *
RE:

Court of Appeals Number:
Trial Court Case Number:

05-15-00936/0937-CR
F-1445364-H

Style: Felix Sam Roberts
v.
The State of Texas
Please find attached the opinion that issued in the above cause today.
Respectfully,
/s/ Lisa Matz, Clerk of the Court
cc:

Felicia Pitre (DELIVERED VIA E-MAIL)
Susan Hawk (DELIVERED VIA E-MAIL)
The Honorable Robert Bums (DELIVERED VIA E-MAIL)
The Honorable Mary L. Murphy (DELIVERED VIA E-MAIL)
Christina O'Neil (DELIVERED VIA E-MAIL)

APPENDIX

D

Roberts v. State, Not Reported in S-W^ttZOte)'

2016 WL 6111069
Only the Westlaw citation is currently available.

to the jury and submitted as evidence the judgments
for the convictions alleged in the indictments. The
indictments specifically alleged, and the judgments
showed, that, in each case, appellant committed the
second enhancement offense after being finally convicted

SEE TX R RAP RULE 47.2 FOR
DESIGNATTON AND SIGNING OF OPINIONS.
Do Not Publish TEX. R APP. P- 47*^
Court of Appeals of Texas,
Dallas.
Felix Sam ROBERTS, Appellant
v.
The STATE of Texas, Appellee

of tbe first enhancement offense.
Appellant then testified about his previous convictions.
After discussing the various allegations, the State
asked, “So the paragraphs we're talking about, these
enhancement paragraphs, you admitted that you
did all of that, right?” Appellant responded “Yes,
ma'am.” Although appellant pleaded “not true” to
the enhancement allegations, he admitted each specific
enhancement allegation in his testimony.

No. 05-15-00936-CR, No. 05-15-00937-CR

I
Opinion Filed October 191 2016

I
Discretionary Review Refused March 1,2017
On Appeal from the Criminal District Court No. 1, Dallas
County, Texas, Trial Court Cause No. F-1445364-H, The
Honorable Robert Bums, Judge
Attorneys and La® Firms
Bruce Anton, Dallas, TX, for appellants
Justin Johnson, Susan Hawk, Dallas, TX, for appellees.
Before Justices Francis, Stoddart, and Schenck
memorandum opinion

Opinion by Justice Francis
*1 A jury convicted Felix Sam Roberts of aggravated
assault with a deadly weapon and unlawful possession
of a firearm by a felon. After finding the enhancement
paragraphs true, the jury set punishment at thirty-five
and thirty years in prison. In a single point of error in
when the trial co
offenses and convictions in the enhancement paragraphs
sequential. We affirm the trial court's judgments.
The indictments in each case alleged two previous
offenses for purposes of punishment enhancement. At
the punishment phase, the State read the portions of
the indictments describing the enhancement offenses

iuri-rt

avA/

The charge of the court in each case set out the
enhancement allegations. The charge in the aggravated
assault case read:
Paragraph Two of the indictment alleges that prior
to the commission of the aforesaid offense, the said
defendant was convicted of the felony offense of driving
while intoxicated/3rd on the 27th day of July, 2009,
in Cause Number 401-82401/08 on the docket of the
401st District Court of Collin County, Texas under the
was
name of Felix Sam Roberts, and said conviction
a final conviction and was a conviction for an offense
committed by him, the said Felix Sam Roberts, prior
to the commission of the offense herein before charged
against him, as set forth in the first paragraph hereof. ...
It is further alleged the said defendant, Felix Sam
Roberts was convicted of the felony offense of driving
while intoxicated /3rd on the 8th day of April, 2005, in
Cause Number F0534491, on the docket of the 292nd
Judicial District Court of Dallas County, Texas under
the name of Felix Sam Roberts, and said conviction was
a final conviction and was a conviction for an offense
committed by him, the said Felix Sam Roberts, prior to
the commission of the offense.
Th, ch.se **^ — *‘"
felon case read:
Paragraph Two of the indictment alleges that prior
to the commission of the aforesaid offense, the said
defendant was convicted of the felony offense of driving
while intoxicated /3rd on the 8th day of April, 2005, in
Cause Number F0534491, on the docket of the 292nd

*=\ iru o Thnmcnn Renters. No claim to original U.S. Government Works.

.

1

Roberts v. State, Not Reported in S.W.3d (2016)
supports enhanced punishment under section 12.42(d).
Appellant agrees the State proved the enhancement
allegations at trial, does not contest the evidence to
support them, and complains only of the instructions
given to the jury. He contends that because the court
never specifically instructed the jury that it had to find the
second previous felony offense was committed subsequent
to the first previous felony conviction having become
final, enhancement was improper and remand for a
punishment hearing is required. In the unlawful
new
possession of a firearm by a felon offense, he asserts the
sentence is illegal. Based on the record before us, we

Judicial District Court of Dallas County Texas under
the name of Felix Sam Roberts, and said conviction was
a final conviction and was a conviction for an offense
committed by him, the said Felix Sam Roberts, prior
to the commission of the offense herein before charged
against him, as set forth in the first paragraph thereof....
*2 It is further alleged the said defendant, Felix Sam
Roberts was convicted of the felony offense of burglary
of a vehicle on the 30th day of December, 1997, in
Cause Number F9270224, on the docket of the Criminal
District Court No. 1 of Dallas County, Texas, under
the name of Felix Sam Roberts, and said conviction

cannot agr .

was a conviction for an offense committed by him the
said Felix Sam Roberts, pnor to the commission of e
offense or offense. To this allegation the defendant has

^
s ^ nQt contain ^ language specifying
<«second felony conviction was for an offense that
subsequent to the fust felony conviction having

entered a plea of not true.

become final ” the only evidence of previous convictions

the charge, »d the jm, re.rn.ed a verdict ftatag the

the offence 1““'™

paragraphs hue and aececsed » chanced sendee.

™

, conit's charge to the jnry must cotrectly apply the

the allegations true, it necessarily had to find W'1*™*

Uw to the facts of the rase. See TEX. CODE.CRIM.

pmmoml,

is shown on the trial of a felony offense other than a
state jail felony punishable under section 12.3 5(a) that the
drfendantte^ralyto^^rarfofwo

offenses and convictions wer p
consideration.
^ Erajf jt^„ort„ Httinclnde dm language d.a.

,»■

of . Mon,
f„, ft. jury to bd

for the fo.

1
* A
With a deadlv weapon and unlawful
"tf^hyaCareLud-andmlrd.

refd);
Damian
State, lib b.w.^a
t
rr
Houston
[Uftv.Dish,
P* -*• We resolve
fcese

degree felonies, respectively. See TEX. PENAL CODE

issues against him.

ANN. §§ 22.02 & 46.04 (West 2011).

We affirm the trial court's judgments.

the State
Here, the previous judgments submitted by
testimony
provided
prima
facie
and appellant's own
evidence that appellant was finally convicted of two
separate, sequential felony offenses prior to the offenses
for which he was standing trial. Thus, the evidence

_____K l —.

All Citations
^ Reported k S.W.3d, 2016 WL 6111069

orininai i l.R. Government Works.

2

Roberts v. State, Not Reported in S.W.3d (2016)

© 2018 Thomson Reuters. No claim to original U.S. Government Works.
End of Document

■nt \Mnrlcs.

3

appendix

e

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLEW. CAYCE
CLERK

July 02, 2021

#2017141
Mr. Felix Roberts
CID Estelle Unit
264 FM 3478
Huntsville, TX 77320-3320

No. 20-10280

Roberts v. Lumpkin
USDC No. 3:17-CV-3326

Dear -Mr. Roberts,
for rehearing and en banc
■ We will take no action- on your motion
The time for filing a petition for rehearing
reconsideration.
under has expired.
final ruling and will not rule
t The court already has issued its
COA on May 3, 2021 and
Court denied The■appeal
upon the matter further. The
is closed.
2021.
denied reconsideration on June 21,
Sincerely,
LYLEW. CAYCE, Clerk
Claudia N. Farrington, uepuly Clerk
504-310-7706

cc:

Ms. Jennifer Wissinger

V

